GR-40-98-008
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
Office of Community Oriented Policing Services
Grant to the Sunflower County, Mississippi, Sheriff's Department
Grant Number 95-CF-WX-3080
GR-40-98-008
March 1998
 
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of a grant
awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented Policing
Services (COPS), to the Sunflower County, Mississippi, Sheriffs Department. Sunflower
County received a grant of $58,603 (No. 95-CF-WX-3080) to hire or rehire one sworn deputy
under the Funding Accelerated for Smaller Towns (FAST) program. The purpose of the extra
deputy is to enhance community policing efforts.
In brief, Sunflower County was not making a good faith effort to implement community
policing efforts. Sunflower County did not perform 14 of the 15 community policing
activities described in its grant application. The only activity performed by the two
part-time deputies hired under the grant was foot patrol to police the Courthouse
facility. Further, neither of the part-time deputies had attended prescribed training and
obtained certification by the Mississippi Board on Law Enforcement Officers Standards and
Training, and neither had attended community policing training as indicated in the grant
application. Accordingly, we question the total grant, $58,603, as unallowable -- $50,256
for which Sunflower County has received reimbursement through December 31, 1997, as
unallowable, and we recommend the remaining balance of the grant, $8,347, be deobligated.
#####